U.S. Department of Labor                     Office of Inspector General
                                             Washington, DC. 20210




      July 8, 2004


      MEMORANDUM FOR:                SAMUEL T. MOK
                                     Chief Financial Officer


      FROM:                          ELLIOT P. LEWIS
                                     Assistant Inspector General for Audit

      SUBJECT:                       The e-Payroll Quicksilver Project: Resolution Status of
                                     Prior Recommendations and Project Plan Not Effectively
                                     Communicating Progress
                                     Period Ending June 23, 2004
                                     Audit Report No. 23-04-012-13-001

      The attached report is submitted for your action. This report incorporates the Deputy
      Chief Financial Officer’s response to the draft report briefing and the auditor’s
      conclusions regarding the response. In addition, the Deputy CFO’s response is attached
      to this report in its entirety. We request a response to this report by July 13, 2004 due to
      the significance of the issues presented and the need for timely closure.

      Based on the information provided to the OIG in the OCFO’s response and discussions
      held at the briefing of the draft report on June 23, 2004, we made minor changes to the
      original briefing to provide clarification and emphasis where appropriate. In addition, we
      relied on this information to finalize our conclusions regarding the briefing’s
      recommendations:

      Status of Prior Recommendations – Of the six prior recommendations, OIG has closed
      two based on the corrective actions taken by the OCFO. The remaining four
      recommendations include two that are in resolved status and two that remain unresolved.
      Further details related to these four recommendations follow.

      Prior Recommendations - Resolved

      Recommendation 3 and 4: Brief the TRB on the status of the e-Payroll project on a
      regularly scheduled basis to gain added insight and advice from knowledgeable and
      experienced department-wide IT managers. Commit to having the OCIO and TRB
      involved in the e payroll project and take advantage of the OCIO’s authority to leverage
      DOL’s IT resources to ensure project success.

             OCFO Response: The OCIO has been and continues to be involved in the
             project. The Deputy CIO is the CIO’s representative to the e-Payroll project status
             meetings with OMB and OPM. The Deputy CIO’s office is responsible for


                          Working for America’s Workforce
                                            2


       forwarding the e-Payroll project business case and capital investment plan to
       OMB after they are satisfied with it. The OCFO oversees the development or
       enhancement of all financial management systems in accordance with the CFO
       Act. The OCFO will work with the OCIO to assure each complies with statutes
       that govern their respective oversight roles. The e-Payroll project is following the
       implementation and documentation phases of the Department’s Systems
       Development and Life Cycle Methodology.

       OIG will continue to monitor the OCFO’s relationship with the TRB, OCIO,
       and others throughout the duration of the project to determine OCFO’s
       effectiveness in communicating with the e-Payroll stakeholders.

Prior Recommendations - Unresolved

Recommendation 5: Commit to developing an updated project migration budget
indicating expected costs of migration.

       OCFO Response: The project migration budget was developed in February 2004,
       as part of the analysis of the migration options and with the involvement of
       appropriate DOL individuals. OCFO further stated that the budgets are complete
       and contain all material items.

       OIG does not believe that the budget documents provided to us provide the level
       of detail necessary to properly manage the project. OCFO needs to develop a
       detailed project budget showing major cost activities, such as contractors,
       experts, staff, non-CFO agencies, travel, etc.

Recommendation 6: If these actions cannot be taken within a reasonable amount of
time, the DOL should reevaluate its ability to achieve the September 30, 2004 deadline.

       OCFO Response: As described above, the OCFO has already achieved the
       actions recommended by the OIG. In addition, OCFO staff took many other
       important actions. Beginning in late January 2004, they mapped the data in the
       department’s payroll system to the NFC system. This was substantially completed
       in early March 2004.

       OIG will continue to monitor the OCFO’s compliance with DOL’s SDLCM
       throughout the duration of the project, including accomplishing major
       milestones, tasks, and subtasks and other related activities of OCFO’s
       management and project team.

New Recommendations - There are two new recommendations resulting from the OIG’s
analyses of the e-Payroll project’s progress. Based on the OCFO’s corrective actions and
response to the draft report, one recommendation remains unresolved, while the other
recommendation has been resolved. Further details related to these two
recommendations follow.
                                            3




New Recommendation – Unresolved

Recommendation 1: Ensure that the project plan adequately reflects the project’s
progress (i.e., completing blank fields, assigning resource names to tasks, and updating
task completion percentages) and develop a plan structure that compares baseline project
information to actual project information.

       OCFO Response: The project plan is used by DOL primarily as a management
       tool. OCFO believes the project schedule does reflect the true status of the
       project. Although oversights occasionally occur, the plan is updated weekly and
       discussed with the Deputy CFO and other stakeholders. In regards to
       accountability, Resource Names were not issued for tasks completed prior to the
       creation of the Project Plan. Tasks occurring in the future will be given an
       Organization and Resource name once the task begins. Roll-up tasks are not
       assigned an Organization and/or Resource name because those individuals listed
       under resource name for the sub-tasks are all held accountable for the roll-up task
       completion. Other tasks without Resource Names belong to NFC.

       OIG Conclusion: OIG is satisfied with OCFO’s explanation for the lack of
       Resource and Organization Name for some tasks, i.e., we understand that tasks
       belonging to NFC are considered the responsibility of NFC’s Project Leader. The
       OCFO, however failed to identify the development of a project baseline matrix.
       Although it is useless to develop one for tasks already complete, we recommend
       that the OCFO develop a plan that compares baseline and actual start and
       completion dates to better assist management in understanding project status. The
       OCFO also has not accounted for the inconsistent task percentage completions
       and apparent task slippage. If the project schedule accurately reflects the true
       status of the project as the OCFO stated in its response, then task slippage has in
       fact occurred for major milestones and other sub-tasks. We note that Parallel
       Testing has as of this writing been postponed by two weeks, confirming our
       concern regarding task slippage. Therefore, this recommendation is unresolved
       until further review of the effects of these tasks on the overall progress and
       completion of the project.

       To resolve this recommendation, the OCFO needs to provide OIG with the
       documents submitted to the Deputy CFO at status meetings stating why one or
       more tasks or subtasks have slipped and presenting the project manager’s
       understanding of the potential effect on upcoming tasks. Further, the revised
       impact on completion percentages of affected task(s) in the Project Plan should
       be accurately reflected. The “Work Plan Reconciliation and IG Response”
       provided by the OCFO on June 17, 2004 noted that status reports to the Deputy
       CFO exist, and presumably can be relied upon to support such a representation
       of actual project status, including the impact of changes to the schedule.
                                            4




New Recommendation – Resolved

Recommendation 2: Develop a methodology in accordance with best practices for
approving changes to the Project Plan including appropriate documentation of the
approval process, such as the date of the requested change, the person requesting the
change, the approval of the change, the date of the approval, the implementation of the
change, a quality assurance sign off and a risk analysis of the change.

       OCFO Response: There have been no significant changes to the project plan.
       OCFO’s change control methodology has been to discuss changes to the plan in
       daily and weekly status meetings and highlight them in green on each release of
       the project plan. IV&V contractors help analyze risk and quality assurance for
       each change.

       In the future should any of the project position papers result in the need for a
       significant project schedule change, the OCFO will repackage their existing
       documents and use their existing methodology to suit the format recommended by
       the OIG.

       OIG Conclusion: Based on the information provided by the OCFO to OIG, this
       recommendation is resolved. OIG received a Project Plan “change request” form
       from the OCFO.

       To close this recommendation, the OCFO must demonstrate continued use of such
       “change request” forms for significant changes and impacts to the Project Plan.

Attachment

cc:    Greg James
       Patrick Pizzella
       Barbara Burkhalter
                                     U.S. Department of Labor




 United States Department of Labor
        Office of Inspector General
    The e-Payroll Quicksilver Project:
  Resolution Status of Prior Recommendations and
Project Plan Not Effectively Communicating Progress
             Period Ending June 23, 2004

                                Audit Report No. 23-04-012-13-001
                                Date: JUL 8, 2004
                                                             U.S. Department of Labor




The e-Payroll Quicksilver Project: Resolution Status of Prior
Recommendations and Project Plan Not Effectively
Communicating Progress


  This audit was performed by Urbach Kahn & Werlin Advisors, Inc., under contract to the
  Office of Inspector General, and, by acceptance, it becomes a report of the Office of
  Inspector General.




                                            2
                                                             U.S. Department of Labor


Executive Summary
Resolution Status of Prior Recommendations :

  -   Recommendation 1: Obtain written confirmation from NFC that the conversion
      can be completed by September 30, 2004, for DOL. Insist on reviewing NFC
      project plans and maintain periodic discussions with NFC management to confirm
      continuously that NFC is on schedule to meet DOL’s deadline.
                Status: Closed

  -   Recommendation 2: Develop a detailed conversion plan that indicates the
      process and milestones that ensures all payroll and data validation will be
      completed and how the conversion of the data to NFC will be accomplished.
                Status: Closed

  -   Recommendation 3 and 4: Brief the TRB on the status of the e-payroll project on
      a regularly scheduled basis to gain added insight and advice from knowledgeable
      and experienced department-wide IT managers. Commit to having the OCIO and
      TRB involved in the e payroll project and take advantage of the OCIO’s authority
      to leverage DOL’s IT resources to ensure project success.
                Status: Resolved

      However, continued review of OCFO’s involvement with the OCIO and TRB throughout the
      duration of the project will be monitored by the OIG


                                           3
                                                             U.S. Department of Labor




Executive Summary continued…
 - Recommendation 5: Commit to developing an updated project
   migration budget indicating expected costs of migration.

                Status: Unresolved

   Additional review of funding documents and the process of tracking project costs must be
   continued by OIG.


 - Recommendation 6: If these actions cannot be taken within a
   reasonable amount of time, the DOL should reevaluate its ability to
   achieve the September 30, 2004 deadline.
                Status: Unresolved

   The OIG will continue to monitor OCFO’s compliance with DOL’s System Development Life
   Cycle Management (SDLCM) manual throughout the duration of the project.



                                          4
                                                                          U.S. Department of Labor




Executive Summary continued…
Project Plan Not Effectively Communicating Progress:

-   Insufficient and/or inaccurate representation of project status portrayed by the
    Project Plan due to:
     -     Task slippage (postponement or setback of a scheduled task), including the following
           three major milestones:
           - Finalize Data Conversion Design
           - Finalize Interface Design for PeopleTime Time & Attendance Interface
           - Finalize Interface Design for PeoplePower HR Interface
     -     Inconsistent task completion percentages in relation to estimated completion dates
     -     Inconsistent task completion percentages in relation to task duration
     -     Lack of task accountability

-   Lack of formal approval/documentation of project plan changes for:
     -     The date of approval
     -     The implementation of the change
     -     Quality assurance sign-off
     -     Risk analysis of the change




                                                    5
                                                     U.S. Department of Labor




Executive Summary continued…
  To ensure effective management of the project, including
  meeting the current deadline of September 30, 2004, we
  recommend that the following occur:

• Recommendation 1: Ensure that the project plan adequately reflects the
  project’s progress (i.e., completing blank fields, assigning resource names to
  tasks, and updating task completion percentages) and develop a plan
  structure that compares baselined project information to actual project
  information

• Recommendation 2: Develop a methodology in accordance with best
  practices for approving changes to the Project Plan including appropriate
  documentation of the approval process, such as the date of the requested
  change, the person requesting the change, the approval of the change, the
  date of the approval, the implementation of the change, a quality assurance
  sign-off, and a risk analysis of the change


                                      6
                                     U.S. Department of Labor




Audit Objective


To determine whether the conversion and migration
effort of the Department’s Payroll functions are being
effectively managed to ensure the project will meet the
target date of September 30, 2004; as directed by the
President’s Management Agenda quicksilver project,
“e-Payroll: Payroll Processing Consolidation”




                          7
                                                                                 U.S. Department of Labor




Audit Scope
For this interim report, we audited the project management activities of the Office of the Chief Financial Officer
(OCFO) located in Washington, DC, and related supporting documentation that is being used to achieve a
September 30, 2004, implementation date for the e-Payroll conversion and migration project including:

      1.      the completeness of documentation required by DOL’s SDLCM or a SDLC methodology approved by the
              OCIO;
      2.      project management compliance with activities specified within the DOL SDLCM or another OCIO
              approved SDLC methodology;
      3.      project management involvement of DOL Business Sector decision making authorities and;
      4.      responsibilities and progress of any third party agencies involved with the conversion/migration.

This report is not based on an assessment of all management controls that could be considered as the audit progresses.

Compliance/noncompliance of any of the above will be reported using interim reports as well as an overall report at the
conclusion of the audit. This interim report is based on our work from March 23, 2004 to June 18, 2004.

The audit period for this engagement is January 1, 2004 – September 30, 2004




                                                          8
                                                                U.S. Department of Labor



Audit Methodology
We have:

• Assessed the activities and documentation developed for each SDLC phase

• Assessed project management activities during the course of preliminary system
  development

• Reviewed conversion and migration documentation developed during the decision making
  process

• Conducted interviews with key DOL personnel, including members of the OCFO, OASAM and
  AO groups

• Obtained and analyzed OCFO Fit-Gap reports

• Performed preliminary interviews and assessments of outside parties hired to provide
  resolution

• Adhered to the Government Auditing Standards outlined in GAO’s “Yellow Book”




                                               9
                                             U.S. Department of Labor




Reporting

This report is an interim report. As additional work is performed,
further interim reports could be developed during the audit
including our final report at the conclusion of the audit.




                                10
                                                 U.S. Department of Labor



Status of Prior Recommendations from the
OIG Interim Report Issued March 22, 2004
   Recommendation 1: Obtain written confirmation from NFC that the
   conversion can be completed by September 30, 2004, for DOL. Insist on
   reviewing NFC project plans and maintain periodic discussions with NFC
   management to confirm continuously that NFC is on schedule to meet
   DOL’s deadline.

            Status: Closed


   Recommendation 2: Develop a detailed conversion plan that indicates the
   process and milestones that ensures all payroll and data validation will be
   completed and how the conversion of the data to NFC will be
   accomplished.

            Status: Closed



                                  11
                                                         U.S. Department of Labor



Status of Prior Recommendations from the
OIG Interim Report Issued March 22, 2004
                continued…
  Recommendation 3 and 4: Brief the TRB on the status of the e-payroll
  project on a regularly scheduled basis to gain added insight and advice
  from knowledgeable and experienced department-wide IT managers.
  Commit to having the OCIO and TRB involved in the e payroll project
  and take advantage of the OCIO’s authority to leverage DOL’s IT
  resources to ensure project success.
              Status: Resolved

  However, continued review of OCFO’s involvement with the OCIO and TRB throughout the
  duration of the project will be monitored by OIG.




                                       12
                                                            U.S. Department of Labor



Status of Prior Recommendations from the
OIG Interim Report Issued March 22, 2004
                continued…
  Recommendation 5: Commit to developing an updated project
  migration budget indicating expected costs of migration.

               Status: Unresolved

  Additional review of funding documents and the process of tracking project costs must be
  continued by OIG.

  Recommendation 6: If these actions cannot be taken within a
  reasonable amount of time, the DOL should reevaluate its ability to
  achieve the September 30, 2004 deadline.

               Status: Unresolved

  The OIG will continue to monitor OCFO’s compliance with DOL’s System Development Life
  Cycle Management (SDLCM) manual throughout the duration of the project.



                                         13
                                                                           U.S. Department of Labor




1. The Project Plan is communicating misleading and/or inaccurate
   information regarding project progress.

•   Final Project Plan versions being created with changes of start
    and final completion dates results in masking progress of project

•   Slippage (postponement or setback of a scheduled task)
    –   Several tasks have slipped from their original estimated start and/or estimated completion
        dates based on a comparison of the first three e-Payroll Migration Schedules provided from
        the OCFO, submitted on 4/12/04, 4/30/04, and 5/24/04, respectively

          •   Slippage Breakdown
                  – 14 tasks slipped for Estimated Completion Date
                        » Includes the following 3 Major Milestones:
                           - Finalize Data Conversion Design (WBS 4.1)
                           - Finalize Interface Design for PeopleTime T&A Interface (WBS 5.1)
                           - Finalize Interface Design for PeoplePower HR Interface (WBS 6.1)

                 – 17 tasks slipped for both Estimated Begin and Completion Dates




                                                     14
                                                                  U.S. Department of Labor



1. The Project Plan is communicating misleading and/or inaccurate
   information regarding project progress. (continued)


 • Inconsistent Task Completion Percentages in relation to
   Estimated Completion Date
     – According to the Migration Schedule, several sub-tasks as of 5/24/04 should
       have been complete; however, their task completion percentages do not read
       100%. Therefore, it cannot be determined if the project is on, ahead or behind
       schedule. Examples are listed below.




                Note: This listing does not include all cases of this occurrence




                                              15
                                                                 U.S. Department of Labor



1. The Project Plan is communicating misleading and/or inaccurate
   information regarding project progress. (continued)


• Inconsistent Task Completion Percentages in regards to Task
  Durations
    – Task durations within the Migration Schedule are not always consistent with
      the completion percentages for each task. Therefore, it cannot be determined
      if the project is on, ahead or behind schedule. Examples are listed below.




                Note: This listing does not include all cases of this occurrence




                                             16
                                                               U.S. Department of Labor



1. The Project Plan is communicating misleading and/or inaccurate
   information regarding project progress. (continued)

• Lack of Task Accountability
    – The project plan is incomplete with respect to assigned accountability for
      milestone and sub-task completion
       • Resource name field is blank for several Major Milestones and sub-
          tasks indicating that no key individual is responsible for its completion




            Note: Task 9.4 was indicated as a Major Milestone per Project Manager


                                            17
                                                               U.S. Department of Labor




    Possible negative results if not addressed

•    Slippage within the project plan, even at the level of sub-tasks, may
     have a cumulative impact on the overall success of the e-Payroll
     migration. It potentially could lead to:

      •   project bottlenecks (set-back to tasks dependent on other tasks)
      •   a false sense of security to management regarding progress
      •   confusion; not only for individuals not involved with the project but even those
          working on the project on a daily basis including oversight groups (e.g., CIO,
          OIG) and Department Officials
      •   critical sub-tasks being cut short to meet milestone objectives




                                              18
                                              U.S. Department of Labor




2. Lack of formal approval or documentation of Project Plan changes


•   A schedule highlighting the tasks that have changed in one form or
    another was provided by the OCFO, however, it does not document:

        • the date of the requested change
        • the person requesting the change
        • its approval
        • the date of approval
        • the implementation of the change
        • quality assurance sign-off
        • risk analysis of the change




                                  19
                                                            U.S. Department of Labor




    Possible negative results if not addressed

•    Lack of communication of changes to the approved Project Plan could
     portray an inaccurate sense of project progress to key individuals
     within the DOL who are not involved on a daily basis with the overall
     progress of the development initiative. A formal approval process will
     ensure a proper risk analysis of the requested change to the project
     plan and, therefore, possibly avoiding:

      •   Negative impact to the security of the system
      •   Endangerment of system functionality
      •   Financial constraints
      •   Time constraints
      •   Difficulty retracing system development methodology




                                           20
                                                     U.S. Department of Labor



Recommendations
To ensure effective management of the project, including meeting
the current deadline of September 30, 2004, we recommend
immediate action on the following:

 • Recommendation 1: Ensure that the project plan adequately reflects the
   project’s progress (i.e., completing blank fields, assigning resource names to
   tasks, and updating task completion percentages) and develop a plan
   structure that compares baselined project information to actual project
   information

 • Recommendation 2: Develop a methodology in accordance with best
   practices for approving changes to the Project Plan including appropriate
   documentation of the approval process, such as the date of the requested
   change, the person requesting the change, the approval of the change, the
   date of the approval, the implementation of the change, a quality assurance
   sign-off, and a risk analysis of the change



                                      21
                                                                               Attachment

      OCFO Response to OIG’s June 23, 2004 Presentation on e-Payroll

OIG Recommendation 1: Ensure that the project plan adequately reflects the project's
progress (i.e., completing blank fields, assigning resource names to tasks, and updating
task completion percentages) and develop a plan structure that compares baseline project
information to actual project information.

OCFO Response:

The project plan is used by DOL primarily as a management tool. For example, OCFO
does not have a concern that resource names have not been assigned for tasks that
occurred in the past - before the plan was created - and which are included only for
historical reference. Assigning these names on our plan would be of limited use to our
team.

We believe that the project schedule does reflect the true status of the project. When task
end dates need to be changed, they are changed. When progress is made on DOL tasks,
we update the percentage complete. Although oversights occasionally occur, the plan is
updated weekly and discussed with the Deputy CFO and other stakeholders

Attachment A is another copy of the explanations of the blank field and blank resource
Names you questioned. We provided this detail to the OIG on June 25, 2004 and
narrative on June 23, 2004.

OIG Recommendation 2: Develop a methodology for approving changes to the Project
Plan including appropriate documentation of the approval process, including
documentation of the date of the requested change, the date of the approval, the
implementation of the change a quality assurance sign off and a risk analysis of the
change.

OCFO Response: Up to this time there have been no significant changes to the project
plan. The only changes to the project plan have been minor or administrative in nature.
Attachment B is another copy of the explanation of the changes and percentages of
completion the OIG questioned. We provided this detail to you on June 25,2004, and on
June 16, 2004, with narrative on June 23, 2004.

As we explained, our change control methodology has been to discuss changes to the
plan in daily and weekly status meetings and highlight them in green on each release of
the project plan. Our IV&V contractors participate in all meetings and review all
documents in order to assure quality and help the project manage risk. Representatives of
the Office of Human Resources, the Office of Information Technology, and the Office of
the Deputy Secretary attend the daily and other project team meetings as they deem
necessary in order to assure that department-wide issues are not overlooked. And finally
we review the project schedule monthly with OMB and OPM. We prepare position




                                           A -2
                                                                                 Attachment

papers for issues that come to our attention from any project participant. This change
control process and methodology is working extremely well for all stakeholders.

In the future should any of the project position papers result in the need for a significant
project schedule change, we will repackage our existing documents and use our existing
methodology to suit the format recommended by the OIG. Attachment C is an example
of the Change Request process recently implemented.




                                            A -3
